e?>

PROOF OF SERVICE
At the time of service, I was over 18 years of age and not a party to this action.
I am a resident of/employed in the County of _Alameda. My business/residence address
is .1305 Franklin St., Ste. 504, Oakland, CA. 94612.
On
following means:

September 30,2020

„ I served the following documents) by the

Plaintiff Cherrie Hollie’s Petition for Writ of-Certiorari (Resubmission)
xx_(By Regular Mail) I enclosed the documents in a sealed envelope or package addressed to the
addresses as set forth below and placed the envelope for collection and mailing, following
ordinary business practices. On the same day that correspondence is placed for collection and
mailing, it is deposited in the ordinary course of business with the United States Postal Service at
Oakland, California, in a sealed envelope or package with postage thereon fully prepaid.
J

___By Golden State Overnight) I enclosed the documents in an envelope or package and
addressed to the persons or the addresses stated below, I placed the envelope for collection and
delivery at a Golden State Overnight dropbox at Oakland . California for collection and
overnight delivery by Golden State Overnight.
___(By Personal Service) I personally served the documents on
at the address listed below.
___(By Facsimile Transmission) I faxed the documents to the persons set forth below at the faxnumbers) listed below.
Department of Justice, Civil Division
Commercial Litigation Branch
Civil Division, Department of Justice
P.O. Box 480, Ben Franklin Station
Washington, D.C. 20044
Attn.: David R. Pehlke, Esq.
I declare under the laws of the State of California that the foregoing is true and correct, and
that this Declaration is executed on September 30,2020 at Oakland, California.

Proof of Service

. A^JMON

PROOF OF SERVICE
At the time of service, I was over 18 years of age and not a party to this action.
I am a resident of/employed in the County of Alameda. My business/residence address
is .1305 Franklin St., Ste. 504, Oakland, CA. 94612.
On
following means:

August 26. 2020

„ I served the following document(s) by the

Plaintiff Cherrie Hollie’s Petition for Writ of Certiorari
xx (By Regular Mail) I enclosed the documents in a sealed envelope or package addressed to the
addresses as set forth below and placed the envelope for collection and mailing, following
ordinary business practices. On the same day that correspondence is placed for collection and
mailing, it is deposited in the ordinary course of business with the United States Postal Service at
Oakland. California, in a sealed envelope or package with postage thereon fully prepaid.
___By Golden State Overnight) I enclosed the documents in an envelope or package and
addressed to the persons or the addresses stated below, I placed the envelope for collection and
delivery at a Golden State Overnight dropbox at Oakland . California for collection and
overnight delivery by Golden State Overnight.
___(By Personal Service) I personally served the documents on _________________________
at the address listed below.
___(By Facsimile Transmission) I faxed the documents to the persons set forth below at the faxnumbers) listed below.
Department of Justice, Civil Division
Commercial Litigation Branch
Civil Division, Department of Justice
P.O. Box 480, Ben Franklin Station
Washington, D.C. 20044
Attn.: David R. Pehlke, Esq.
I declare under the laws of the State of California that the foregoing is true and correct, and
that this Declaration is executed on August 26„ 2020 at Oakland, California.
r

Proof of Service

)

DtAMMON

CERTIFICATE OF COMPLIANCE
This brief complies with the type-volume limitation of Federal Rule of Appellate
Procedure 32 (a) (7) (B). The brief contains 4065 words. This brief also complies with the
typeface requirements of Fed. R. App. P. 32 (a) (6). It has been prepared in a
proportionally spaced typeface using Microsoft Word Times New Roman, 12-point font.

CHERRIE A. HOLLIE
Appellant in Pro Per

I

r

s
c

-14-

Petition for a Writ of Certiorari

